WAIVER

SUPREME COURT OF THE UNITED STATES

No. 21-423

Jason Cunningham j Robert Paschal, et al.
(Petitioner) Vv. (Respondent)

IDO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
© Lam filing this waiver on behalf of all respondents.

oO Tonly Tepresent some respondents. I am filing this waiver on behalf of the following respondent(s):

Please check the appropriate box:

® Tama member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)

oO lam not presently a member of the Bar of this Court. Should a response be requested, the response

will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, ge ae D.C. 20543).

Signature: hn Wlaeinth « é

Date: 9/22/21

 

(Type or print) Name John Marshall Jones

 

© wr. © Ms. oO Mrs. © Miss
Firm Shelby County (TN) Attorney's Office ~
Address 160 North Main Street, Suite 950 :
City & State | Memphis, ™ - ~ Zip 38103

 

Phone (901) 222-2100 | Email johnm jones@shelbycountytn.gov

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Daniel A. Seward, Esq.
ee:
